        Fiscal Year 2011
 Inspector General Statement
             on the
Social Security Administration’s
    Major Management and
   Performance Challenges
          A-02-12-11231




         November 2011
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                               SOCIAL SECURITY
                                        November 4, 2011




The Honorable Michael J. Astrue
Commissioner

Dear Mr. Astrue:

The Reports Consolidation Act of 2000 (Pub. L. No. 106-531) requires that Inspectors General
provide a summary and assessment of the most serious management and performance challenges
facing Federal agencies and the agencies’ progress in addressing them. This review is enclosed.
The Reports Consolidation Act requires that the Social Security Administration (SSA) place the
final version of this Statement in its Annual Performance and Accountability Report.

In Fiscal Year (FY) 2011, we continued to focus on the management and performance challenges
from the previous year. Those challenges are listed below.

• Implement the American Recovery and                 • Improve Customer Service
   Reinvestment Act Effectively and
   Efficiently                                        • Invest in Information Technology
                                                          Infrastructure to Support Current and
• Reduce the Hearings Backlog and                         Future Workloads
   Prevent its Recurrence
                                                      • Strengthen the Integrity and Protection
• Improve the Timeliness and Quality of                   of the Social Security Number
   the Disability Process
                                                      • Improve Transparency and
• Reduce Improper Payments and Increase                   Accountability
   Overpayment Recoveries

My office will continue assessing SSA’s operations and the environment in which it operates to
ensure our reviews focus on the most salient issues facing the Agency. To that end, we believe
an emerging issue is the Agency’s ability to plan both tactically and strategically to ensure it can
meet its mission today and well into the future. We plan to include this issue as a management
challenge in FY 2012.




                SOCIAL SECURITY ADMINISTRATION           BALTIMORE MD 21235-0001
Page 2 - The Honorable Michael J. Astrue


I congratulate you on the progress made in FY 2011 in addressing these challenges. I look
forward to working with you to continue improving the Agency’s ability to address these
challenges and meet its mission efficiently and effectively.

                                            Sincerely,




                                            Patrick P. O’Carroll, Jr.
                                            Inspector General
    Implement the American Recovery and Reinvestment Act
                 Effectively and Efficiently

CHALLENGE: While the completion of a new data center, which is funded by the American
Recovery and Reinvestment Act of 2009 (ARRA) (Pub. L. No. 111-5), is critical to SSA’s
operations, the purchase of the building was delayed, further delaying construction.

On February 17, 2009, the President signed ARRA into law. ARRA provided SSA funds to
address three major efforts.

• $500 million to replace SSA’s National Computer Center (NCC).
• $500 million to process disability and retirement workloads, including information
   technology (IT) acquisitions and research in support of these workloads.
• $90 million to reimburse costs for processing a one-time ERP of $250 to millions of qualified
   individuals receiving Social Security and Supplemental Security Income (SSI) payments.
   (On August 10, 2010, section 318 of Pub. L. No. 111-226 rescinded $47 million of the funds
   SSA received to administer the $250 ERPs.)

We believe the timely replacement of the NCC and the capacity of SSA’s computer systems
continue to be major challenges for the Agency. SSA’s NCC houses the infrastructure that
supports the Social Security programs provided to the public and other services provided to
Federal, State, international, and private agencies. In FY 2011, we issued two reports on SSA’s
efforts to replace the NCC with a new data center.

Data Center Site Selection: In February 2011, we issued our report on The Social Security
Administration’s New Data Center Site Alternatives. We evaluated the appropriateness of the
short list of potential building sites for the new data center selected by the General Services
Administration’s (GSA) site selection team. We found that the site selection team had developed
a highly sophisticated set of selection criteria to evaluate general geographic areas and
prospective individual properties. GSA’s decision criterion sought to avoid both natural and
man-made risks that could be hazardous to the data center’s operation.

However, we had questions about the process the GSA site selection team employed to cull the
site properties down to a short list. The three finalist sites had conflicts with one, two, or three
secondary criteria, while several unsolicited sites had only one documented secondary criteria
conflict.

Data Center Requirements: In May 2011, we issued our report on The Program of
Requirements for the Social Security Administration’s New Data Center. The objective of the
review was to determine whether GSA and SSA followed best practices in developing the overall
Program of Requirements for a new data center. The Program of Requirements provides the




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                         1
minimum design requirements that assist qualified design-build contractors in generating and
presenting conceptual designs, budgets, and schedules for complete turnkey construction of the
new Data Center.

We found that the GSA/SSA team had developed a comprehensive list of requirements. The
team was thorough in creating a document that effectively communicated the needs of a new
data center and the expected performance requirements. However, the structural design limits
for wind speed force were lower than expected for best practice standards. Also, the information
related to the redundancy requirements for the air-handling units was not clearly defined.

Purchase of the Data Center Site: The purchase of the property where a new data center will
be built was delayed. GSA planned to purchase the required land in June 2011, but did not
purchase it until August 2011, thus delaying the start of construction. The timely completion of
a new data center is critical to SSA’s ability to continue providing the level of service the
American public expects and needs.

Agency Actions
In response to ARRA and Office of Management and Budget (OMB) guidance, SSA developed
an ARRA Risk Management Plan that outlined the major challenges and risk mitigation
activities facing SSA in implementing the requirements of ARRA. The challenges fell into five
major categories: Overall Recovery Act Implementation, One-Time ERP Administrative
Expenses, One-Time ERP Payments, Disability and Retirement Workloads, and Replacement of
the NCC. The major areas were further defined by challenges specific to each category. SSA
developed risk mitigation activities to address each identified challenge, and continues to
implement them.

Data Center: In FYs 2010 and 2011, SSA, in coordination with GSA, developed the Program
of Requirements for a new data center. GSA selected a site for a new data center and solicited
for a design/builder. GSA purchased the site in August 2011, and plans to award construction by
March 2012. It plans to complete construction in December 2014. After completion of
construction and commissioning, IT migration to the new data center will take an additional
18 months. SSA stated that the new data center should be operational in 2016.




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                    2
  Reduce the Hearings Backlog and Prevent its Recurrence

CHALLENGE: While SSA has a plan to eliminate the hearings backlog by 2013, budgetary
challenges may affect its ability to do so. In addition, there is a growing concern with
administrative law judges’ (ALJ) adherence to SSA’s policies, and variation in their decisional
outcomes.

Hearings Backlog: At the forefront of congressional and Agency concerns is the timeliness and
accuracy of SSA’s disability decisions at the hearings adjudicative level. SSA has made
progress with its plans to eliminate the hearings backlog and improve average processing time to
270 days by 2013, though increases in hearing receipts and higher than expected ALJ attrition
have hindered progress in FY 2011.

As the end of FY 2011, SSA’s hearings backlog was approximately 787,000 cases—about
82,000 cases higher than the backlog at the end of FY 2010 and 62,000 higher than its goal for
FY 2011. However, SSA continued to improve the timeliness of hearing decisions. The
cumulative average processing time for hearings dropped to 360 days as of the end of FY 2011,
compared to 426 days as of the end of FY 2010.

As we noted in a June 2011 Congressional Response Report, The Office of Disability
Adjudication and Review’s Hearings Backlog and Processing Times, SSA is facing significant
budgetary challenges in meeting the 2013 goal of eliminating the pending hearings backlog.
Based on our 2012 backlog projections, we concluded that SSA will miss its goal to eliminate
the backlog by 2013 if ALJ availability, productivity, or projected hearing receipts varied by as
little as 1 percent.

ALJ Performance: SSA is also facing increased scrutiny of the hearings process itself.
Members of Congress have expressed concerns about ALJ adherence to the Agency’s policies
and procedures, as well as their ability to demonstrate good stewardship of taxpayer dollars.
Other concerns, such as ALJ workloads, variances in ALJ decisional outcomes, management
controls over the hearings process, and quality reviews of ALJ decisions have also come to the
forefront. We have begun work to address these issues, which we expect to complete in
FY 2012. Throughout these reviews, we plan to work with SSA management to identify any
weaknesses in processes, recommend strengthened controls where appropriate, and ensure the
continuing integrity of the hearings process.

We will also continue focusing our audit resources on other hearing-related areas to determine
whether Agency processes are working as intended, including payments to claimant
representatives, processing of complaints from the public, and availability of electronic services
for the public. The hearings process is an important component of SSA’s disability programs,
and it is essential that the public receives a timely hearing and believes the underlying process
treats them fairly.




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                      3
Agency Actions
The Agency continued to implement the Commissioner’s plan to eliminate the backlog through a
variety of initiatives including

• expanding the list of diseases and conditions covered under compassionate allowances;
• increasing adjudicatory capacity through additional hiring, new hearing offices, and the use
   of senior attorney adjudicators;
• reducing the volume of aged cases in the hearings pipeline; and
• improving hearing efficiency with automation and improved business processes, such as the
   expansion of video hearings.

SSA hired 143 new ALJs in FY 2011, and adjudicated approximately 53,000 cases using the
senior attorney adjudication program. It opened or expanded eight hearing offices in FY 2011.
It held almost 130,000 video hearings nationwide in the FY, an increase of more than
9,000 video hearings than in FY 2010.




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                   4
Improve the Timeliness and Quality of the Disability Process

CHALLENGE: The number of pending initial and reconsideration disability claims
continues to increase and a backlog of continuing disability reviews (CDR) remains.

Disability Claims Backlog: SSA is facing a considerable increase in initial and reconsideration
claims. In FY 2011, SSA received over 3.2 million initial disability and 836,000 reconsideration
claims. The increase in claims is matched by an increase in the number of claims pending
completion. For example, at the end of FY 2008, there were over 556,000 initial claims pending.
At the end of FY 2011, there were over 759,000 initial claims pending, an increase of 36 percent
over the FY 2008 year-end pending level.

DDS Personnel Issues: In addition to the increased receipts, some disability determination
services (DDS) are facing high attrition rates, hiring freezes, and employee furloughs, all of
which affect SSA’s ability to process the disability workload. In FY 2011, DDS staffing
decreased from 18,269 employees to 17,271 employees – a loss of 998 employees. With the
hiring freeze, DDSs are not allowed to replace the lost staff. At the end of 2011, five States were
still furloughing DDS employees. In our November 2009 review of the Impact of State Budget
Issues on the Social Security Administration’s Disability Programs, we reported that State
furloughs affected the number of disability determinations some DDSs would make in FY 2010.
As a result of the furloughs, we estimated approximately 69,000 cases would be delayed in
processing, resulting in about $126 million in benefit payments being delayed to newly disabled
claimants.

CDR Backlog: In our March 2010 report on Full Medical Continuing Disability Reviews, we
reported that SSA estimated a backlog of over 1.5 million medical CDRs at the end of FY 2010.
As a result, we estimated that from Calendar Years (CY) 2005 through 2010, SSA made benefit
payments of between $1.3 and $2.6 billion that it could have avoided if the medical CDRs in the
backlog had been conducted by state DDSs when they became due. While SSA completed over
345,000 medical CDRs in FY 2011, over 1.3 million medical CDRs were pending completion at
the FY’s end.

Agency Actions
SSA’s Strategy: In November 2010, SSA released its Strategy to Address Increasing Initial
Disability Claim Receipts (Strategy) to reduce the initial claims backlog to a pre-recession level
by FY 2014. The multi-year Strategy includes
•   increasing staffing in the DDS and Federal disability processing components;
•   improving efficiency through automation;
•   expanding the use of screening tools to assist in identifying claims likely to be allowed; and
•   refining policies and business processes to expedite case completion.




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                      5
As part of the Strategy, SSA hired additional DDS employees and plans to maintain higher
staffing levels over the next several years. In addition, SSA continues to use overtime in the
DDSs. SSA also created centralized units, called Extended Service Teams, in Arkansas,
Mississippi, Oklahoma, and Virginia. The Teams assist by taking claims from the States with
the highest pending levels. As of end of FY 2011, the total staffing for the Extended Service
Teams was 300 employees. At year’s end, SSA had 786 employees in the Federal disability
processing components that support DDSs.

In our June 2011 review, SSA’s Strategy for Reducing the Initial Claims Backlog, we reported
that SSA had taken actions to reduce its initial disability claims backlog—primarily by hiring
additional staff using both annual appropriations and funding provided under the American
Recovery and Reinvestment Act of 2009. We also reported that the Strategy outlined additional
actions SSA has taken or plans to take to reduce initial disability claims to a pending level goal
of 525,000 by FY 2014. Based on SSA’s projections for initial disability claims receipts,
workyears, and productivity, we reported that it appears SSA will meet its goal. However,
achieving this goal is dependent upon SSA receiving funding that will enable it to achieve the
projections for work years and productivity.

Moreover, the Agency has initiated a project to modernize its Disability Case Processing System
to develop a single case processing system to replace the 54 different existing systems that
support the DDSs. The Disability Case Processing System will integrate case analysis tools and
health IT. A single case processing system will help to rapidly distribute policy changes. It
should also have a positive effect on processing times and the accuracy of disability decisions.

Cooperative Disability Investigations: We will continue working with SSA to address the
integrity of the disability programs through the Cooperative Disability Investigations (CDI)
program. The mission of the 24 CDI units is to obtain evidence that can resolve questions of
fraud in SSA's disability claims. The program is managed jointly by SSA's Offices of
Operations, the Inspector General, and Disability Programs. Since its inception in FY 1998
through FY 2011, the program efforts have resulted in $1.9 billion in projected savings to the
Disability Insurance and SSI programs and over $1.2 billion in projected savings to non-SSA
programs. In FY 2011, SSA opened three new CDI units.




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                        6
                Reduce Improper Payments and Increase
                       Overpayment Recoveries

CHALLENGE: SSA is one of the top three Federal agencies with high improper payments.
In FY 2010, SSA reported about $9 billion in improper payments, and the Agency incurred an
administrative cost of $0.07 for every overpayment dollar it collected. Further, SSA needs to
adhere to requirements in Executive Order 13520 – Reducing Improper Payments and
Eliminating Waste in Federal Programs – and the Improper Payments Elimination and Recovery
Act of 2010 (IPERA) (Pub. L. No. 111-204) to address improper payments.

SSA is responsible for issuing over $700 billion in benefit payments annually to about 60 million
people. Given the large overall dollars involved in SSA’s payments, even the slightest error in
the overall process can result in millions of dollars in over- or underpayments.

Improper Payment Rates: Workers, employers, and taxpayers who fund SSA’s programs
deserve to have their tax dollars effectively managed. As a result, SSA must be a responsible
steward of the funds entrusted to its care and minimize the risk of making improper payments.
SSA strives to balance its service commitments to the public with its stewardship
responsibilities. However, given the size and complexity of the programs the Agency
administers, some payment errors will occur.

For example, according to SSA, in FY 2010,

• Old-Age, Survivors and Disability Insurance (OASDI) overpayments were $2.7 billion
   (0.39 percent of outlays), and underpayments were $1.8 billion (0.25 percent of outlays).
• SSI overpayments were $3.3 billion (6.7 percent of outlays), and underpayments were
   $1.2 billion (2.4 percent of outlays) and

For FY 2010, SSA’s goal was to maintain OASDI payment accuracy at 99.8 percent for both
over- and underpayments; for SSI, the Agency’s goal was to achieve an underpayment accuracy
rate of 98.8 percent and an overpayment accuracy rate of 91.6 percent. SSA only met its
payment accuracy goal for SSI overpayments.

For FY 2011, SSA’s goals for OASDI payment accuracy and for SSI underpayments were the
same as those in FY 2010. The SSI overpayment payment accuracy goal increased to
93.3 percent. (FY 2011 payment accuracy rates were not available at the end of FY 2011; they
will be available in June 2012.)

Executive Order 13520 and IPERA: In November 2009, the President issued Executive
Order 13520 on reducing improper payments; and in March 2010, OMB issued guidance for
implementing it. Also, in July 2010, IPERA was enacted. OMB issued guidance on
implementing IPERA in April 2011. As a result, all agencies with high-priority programs—
those with significant improper payments—are required to intensify their efforts to eliminate
payment errors. OMB designated SSA’s programs as high-risk.


FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                       7
Agency Actions
Improper Payment Causes: SSA identifies the major causes of improper payments and takes
steps to address them. For example, one of the major causes of improper payments in the
OASDI program is benefit computation errors. SSA has developed automated tools to address
the more troublesome computation issues. Another major cause of improper payments in the SSI
program is recipients’ failure to provide accurate and timely reports of new or increased wages.
In response, SSA developed a monthly wage reporting system incorporating touch-tone and
voice-recognition telephone technology. SSA also implemented its Access to Financial
Institutions project to reduce SSI payment errors by identifying undisclosed financial accounts
with balances that place recipients over the SSI resource limit.

Debt Collection Tools: SSA uses a variety of methods to collect the debt related to
overpayments. Collection techniques include internal methods, such as benefit withholding and
billing with follow-up. In addition, SSA uses external collection techniques authorized by the
Debt Collection Improvement Act of 1996 (Pub. L. No. 104-134) for OASDI debts, and the
Foster Care Independence Act of 1999 (Pub. L. No. 106-169) for SSI debts. These debt
collection tools include the Treasury Offset Program, credit bureau reporting, administrative
wage garnishment, and Federal Salary Offset. In FY 2010, SSA recovered $3.14 billion in
improper payments at an administrative cost of $0.07 for every dollar collected.

CDRs: The CDR is a powerful tool for reducing improper payments. Through completion of
CDRs, SSA periodically verifies that individuals are still disabled and eligible for disability
payments. Available data indicate that SSA saves about $10.50 for every $1 spent on CDRs.
However, the Agency has cut back on this workload over the past several years. From CYs 2005
through 2010, we estimated SSA would make between $1.3 and $2.6 billion in disability benefit
payments that it could have avoided if it conducted the medical CDRs when they became due.
We estimated SSA would pay between $556 million and $1.1 billion in CY 2011 that it could
have avoided if it had conducted medical CDRs when they became due.

Audit Recommendations: SSA has worked to improve its ability to prevent over- and
underpayments by implementing our audit recommendations. For example, in April 2011, we
issued a report, Title II Beneficiaries Whose Benefits Have Been Suspended and Who Have A
Date of Death on the Numident, which estimated that SSA improperly paid 2,976 beneficiaries
approximately $23.8 million. SSA agreed with the recommendations we made to improve this
area. We also issued a report in June 2011, Supplemental Security Income Recipients with
Unreported Real Property, where we estimated that SSA improperly paid 320,940 recipients
over $2.2 billion because of their unreported real property. SSA agreed with our
recommendations.




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                  8
                            Improve Customer Service

CHALLENGE: SSA acknowledges that it has struggled to maintain the level of service the
American people deserve. Many factors challenge SSA, including growing workloads, changing
customer expectations, an aging workforce, and budget constraints.

SSA is receiving increasing numbers of claims. The Agency received 3.2 million disability
claims in FY 2011—about 100,000 more than in FY 2010. It also received about 4.8 million
retirement and survivor claims (including Medicare applications) in FY 2011. Nearly 80 million
baby boomers are expected to file for retirement over the next 20 years—an average of 10,000
per day. Also, SSA is finding that the public expects it to provide services in new ways made
possible by technology. Further, the projected retirement of its employees continues to present a
challenge to SSA’s customer service capability. SSA estimates that over 47 percent of its
employees, including 63 percent of its supervisors, will be eligible to retire by FY 2019. This
loss of institutional knowledge may adversely affect SSA’s ability to deliver the quality service
the public expects.

Budget: The budget has also affected SSA’s ability to provide service to the public. For
example, in March 2011, SSA suspended mailing all Social Security Statements, and in August
2011, SSA began closing field offices 30 minutes earlier each day because of budget constraints.
Further, in February 2011, the Commissioner stated SSA’s FY 2012 budget would not allow the
Agency to keep up with representative payee accountings.

Customer Service Plan: Despite these challenges, the public deserves competent, efficient, and
responsive service. In April 2011, the President issued Executive Order 13571—Streamlining
Service Delivery and Improving Customer Service—which requires Federal agencies to develop
“. . .a Customer Service Plan to address how the agency will provide services in a manner that
seeks to streamline service delivery and improve the experience of its customers.” In a July
2011 review, The Social Security Administration’s Customer Service Delivery Plan, we found
SSA did not have a long-term (10 years or longer) customer service delivery plan. Instead, SSA
uses its Agency Strategic Plan to present the incremental steps it must take to reach a greater
vision for the Agency. It describes the goals and milestones of mostly short- and mid-range
(3 to 5 years) initiatives, but does not prepare SSA for customer service demands in the long
term. Because we believe long-term strategic planning presents a significant challenge for the
Agency, we identified a new management challenge starting in FY 2012—Strengthen Strategic
and Tactical Planning.

Representative Payee Program: Providing oversight to ensure representative payees properly
manage the Social Security benefits of vulnerable beneficiaries is a critical customer service
performed by SSA. SSA appoints representative payees to receive and manage the benefits of
beneficiaries who are incapable of managing or directing the management of their finances
because of their age or mental or physical impairment. Our reviews continue to identify
problems with SSA’s representative payee program. We found that SSA spends a great deal of
resources pursuing representative payees who do not provide annual accountings of how they
spend Social Security benefits on behalf of the beneficiaries in their care. Also, some minor



FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                    9
children are not assigned representative payees as required by Agency policy. Additionally,
some representative payees are not properly titling bank accounts of beneficiaries in their care;
and certain individual and organizational representative payees have not complied with SSA’s
policies and procedures. For example, several of our audits identified problems with
representative payees allowing SSI recipients’ conserved funds to exceed the $2,000 resource
limit, therefore making them ineligible for payments. Finally, we continue to find problems with
representative payees not returning conserved funds to SSA for beneficiaries who are no longer
in their care.

Agency Actions
SSA has implemented various initiatives to improve customer service, such as clarifying
correspondence, expanding the use of online and automated services, improving telephone and
field office services, and improving the representative payee program.

Correspondence: SSA issues approximately 390 million notices to the public each year, which
makes notices the Agency’s most common communication method. Therefore, SSA is
improving its notices to ensure they are clear, concise, and easily understood. For example, SSA
revised the payment explanations and language concerning reporting responsibilities. SSA
added its Internet address to encourage the use of online services. SSA is making its notices
available in Braille, in large print, in audio, and on compact disc. These options are especially
helpful to people who are blind, visually impaired, or have difficulty reading.

Online and Automated Services: One of SSA’s priorities is to provide the public with more
service options through a wide range of online and automated services. The Agency is working
to implement a new, more secure authentication process to provide a safe environment for people
to conduct business with SSA online. In FY 2011, SSA launched a new homepage to help the
public more easily find information and services on its Website. SSA is also working on an
initiative to provide the public with access to a variety of personalized online services, such as
verifying earnings history, receiving notices, and requesting routine actions. Further, SSA is
implementing an online Spanish-language retirement application, and developing a Spanish
version of the Medicare Extra Help Application.

SSA continues expanding its nationwide marketing campaign for its Internet services through
public service announcements, press releases, videos, and news articles, to encourage the public
to apply for retirement and Medicare online. SSA is also using social media such as Facebook,
Twitter, and YouTube to provide the public with updates and highlight its online applications.

SSA reported that applicants filed 41 percent of retirement claims and 33 percent of disability
claims online in FY 2011. In our March 2011 review, Applicant Experiences with Retirement
Insurance Benefit Internet Claim Applications, and our June 2011 review, Applicant Experiences
with Disability Insurance Benefit Internet Claim Applications, we found that applicants had a
positive perception of the process and found it was very easy to navigate and understand the
information. In FY 2011, the American Customer Satisfaction Index ranked SSA’s online
services as the best in Government, exceeding the top private-sector sites in customer
satisfaction.


FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                    10
Telephone Services: In FY 2011, SSA completed more than 62 million actions on its national
800-number. SSA continues to replace its 800-number infrastructure with a new system that will
help improve service and increase efficiency. The redesigned system will feature shorter
navigation menus and revised scripts for automated applications. It will also offer callers the
opportunity to hang up and receive a return call from SSA when wait times exceed 3 minutes. In
addition, SSA continues to use technology to forecast call volumes, anticipate staffing needs, and
better distribute calls across the network. As a result, SSA reported it reduced busy rates to
3 percent in FY 2011. In FY 2011, SSA answered calls in 180 seconds, 23 seconds faster than in
FY 2010.

Field Offices and Processing Centers: SSA continues to upgrade its field offices to offer
improved services, such as videoconferencing for individuals living in rural areas and televisions
in field office reception areas to broadcast information about SSA programs. SSA reported it
installed video service at 361 locations, which include field offices. Additionally, in FY 2011,
SSA installed televisions in 453 offices, ending the FY with 592 offices with televisions.

In our October 2010 review, Customer Waiting Times in the Social Security Administration’s
Field Offices, we found wait times had improved during our audit period, even though a
significant number of customers still waited more than 1 hour for service, and many customers
left before receiving service. The improvement occurred despite an increase of over 1 million
visitors. Based on our review, we believe SSA is focused on providing timely service to its
customers, and the majority of customers we interviewed agreed that SSA was successful in this
goal.

Representative Payee Program: To ensure the benefits of minor children are properly
managed, SSA agreed to evaluate the feasibility of identifying all children under age 15 without
a representative payee. SSA released a new Web-based electronic representative payee misuse
system to store and track misuse allegations. To protect beneficiaries from potential harm
resulting from conflict of interest, SSA hired a contractor to perform reviews of organizational
representative payees serving in dual roles as both the payee and employer. SSA has issued
publications reminding Agency staff to follow policy governing the representative payee
program, and has worked with payees to correct deficiencies identified during audits.




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                     11
Invest in Information Technology Infrastructure to Support
               Current and Future Workloads

CHALLENGE: At a time when SSA needs to provide additional electronic services to meet
the growing needs of its customers, SSA’s systems capacity is severely strained and in need of
modernization. Additionally, SSA has a significant deficiency in its control of access to sensitive
information.

SSA faces the challenge of how to best use technology to meet its increasing workloads. SSA
will not be able to manage its current and future workloads without the proper IT infrastructure.
The Agency uses a variety of technologies, including telephone service, the Internet, and
videoconferencing to deliver service to its customers. We, along with other organizations
including SSA’s Advisory Board and the Future Systems Technology Advisory Panel, have
concerns regarding the Agency’s lack of IT strategic planning, as well as its IT physical
infrastructure, system modernization efforts, security of sensitive information, and IT service
delivery.

IT Physical Infrastructure: SSA’s NCC, built in 1979, houses the infrastructure that supports
the Social Security programs provided to the public and other services provided to Federal, State,
international, and private agencies. SSA’s primary IT investment over the next few years is the
replacement of the NCC. Increased workloads and growing telecommunication services have
strained the NCC’s ability to support the Agency’s business. However, the Agency has projected
that its new facility will not be operational before 2016.

Systems Modernization: Another major challenge facing SSA is the modernization of its
systems and applications. SSA’s systems modernization is constrained by multiple underlying
challenges. The first is that the foundation of SSA’s IT infrastructure is an outdated database
management system called the Master Data Access Method (MADAM), which SSA developed
in the 1980s. There is a concern that future operating system changes may render MADAM
unusable, and the technical knowledge and skills needed to remedy the situation timely may not
be available. Consequently, future operating system changes could lead to prolonged outages.
Further, the Agency’s continued reliance on MADAM exposes it to significant risks, including
delays in its ability to improve its systems functionality.

Further, some of SSA’s legacy applications are in Common Business Oriented Language
(COBOL), which constrains SSA’s modernization efforts. Studies of SSA’s use of COBOL
have identified challenges, including cumbersome maintenance, lengthy redevelopment time,
and potential loss of institutional knowledge as experienced COBOL programmers retire. In
addition, COBOL restricts SSA from developing more sophisticated Web services to enable the
Agency to meet the growing needs of its customers.

Security of Sensitive Information: The Agency faces another challenge to keep the sensitive
information it houses secure. SSA’s FY 2009, 2010, and 2011 Financial Statement Audits
identified a significant deficiency in the Agency’s control of access to its sensitive information.
For example, SSA did not consistently comply with policies and procedures to periodically


FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                       12
reassess the content of security access given to its employees and contractors. Moreover, some
employees and contractors had greater access to systems than they needed to perform their jobs.
Additionally, certain configurations increased the risk of unauthorized access to key financial
data and programs.

Electronic Services: Finally, SSA must provide additional electronic services to meet the
growing needs of its customers. Because of the economic times and baby boom generation
retirements, more individuals are filing for retirement and disability benefits. SSA must find
ways to expand easy-to-use and secure electronic services for its customers.

In FY 2011, 41 percent of all retirement applications and 33 percent of initial disability
applications were filed online. In December 2009, Commissioner Astrue testified that to keep
field offices from being overwhelmed by increasing workloads, the Agency would need to
increase electronic filing to 50 percent by 2013.

Agency Actions
IT Physical Infrastructure: SSA has taken steps to address its IT physical infrastructure
challenge. The Agency has taken or planned actions to address the NCC’s sustainability through
2014. Moreover, in February 2009, SSA received $500 million in ARRA funding to replace its
NCC. GSA selected a site for SSA’s new data center in June 2011 and purchased it in
August 2011. GSA and SSA also developed a Program of Requirements, and GSA plans to
award design and construction for a new data center in March 2012. The planned completion of
construction date is December 2014. After completion of construction and commissioning, IT
migration to the new data center will take an additional 18 months. The new data center is
expected to be operational in 2016.

In addition, SSA completed the construction of the Second Support Center and took occupancy
in January 2009. The Second Support Center can recover all Agency mission-critical workloads,
with the exception of some of the disability workloads, should the NCC become unavailable.

Systems Modernization: To address its outdated database management system, SSA is
converting its major program databases from MADAM to an industry-standard, modern database
management system to ensure continuity of operations and provide more functionality and
flexibility for future workloads. This conversion involves changes to the current database
structure. These enhancements will take several years to complete. To date, SSA has
successfully completed the conversion of its Numident/Alphident and Master Earnings Files.
SSA is currently converting the Supplemental Security Record file and plans to convert Master
Beneficiary Records file from FY 2012 to 2014.

The Agency’s strategy to address the challenges related to its use of COBOL includes plans to
develop new IT applications with more modern programming languages. SSA plans to transition
existing COBOL legacy applications to more modern programming languages as well. Per SSA,
its budget, business priorities, and changing legislation will affect how quickly these
modernization efforts proceed.



FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                        13
The Agency has also initiated a project to modernize its Disability Case Processing System
(DCPS). The objective of the DCPS project is to develop a single case processing system to
replace the 54 different existing systems that support the DDSs. DCPS will integrate case
analysis tools and health information technology. Also, having a common case processing
system will help to rapidly distribute policy changes and have a positive effect on processing
times and the accuracy of disability decisions.

Security of Sensitive Information: SSA has taken steps to address the security of sensitive
information. SSA assembled a workgroup to address the access control weaknesses identified as
a significant deficiency. The workgroup is testing a commercial tool to manage its employee and
contractor access. SSA plans to roll out a pilot program in December 2011 to resolve some of its
access control weaknesses.

Electronic Services: To address this challenge and reduce the workload in field offices, SSA
offers over 30 electronic services. Further, SSA has researched Internet authentication solutions
to secure such online initiatives as Ready Retirement, replacement SSN cards, and other
automated services.

SSA is developing the Citizen Authentication Initiative to authenticate its electronic
service users in the future. The authentication system will register and authenticate users and
provide controlled, single sign-on access. SSA plans to use this authentication system to enable
members of the public to access SSA’s electronic services. The authentication system will
position SSA to meet its strategic goals of expanding electronic government and increasing the
use of electronic services. By increasing the functionality and scope of SSA's electronic
applications and providing strong, secure, and robust authentication protocols, the Agency
expects to channel more members of the public toward doing business electronically.




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                        14
       Strengthen the Integrity and Protection of the Social
                        Security Number

CHALLENGE: Protecting the SSN and properly posting the wages reported under SSNs
are critical to ensuring eligible individuals receive the full benefits they are due.

In FY 2011, SSA issued approximately 16.4 million new and replacement SSN cards and
received approximately $580 billion in employment taxes related to earnings under assigned
SSNs. Protecting the SSN and properly posting the wages reported under SSNs are critical to
ensuring eligible individuals receive the full benefits due them.

SSN Use: Since the SSN’s inception, SSN collection and use has significantly increased
nationwide. These unique nine-digit numbers have become commonly used identifiers, and
therefore, are valuable as illegal commodities. It has become, in effect, a de facto national
identifier, and the Social Security card is used as a breeder document to establish identity and to
access other services in American society.

While SSA has strengthened controls in the enumeration process and worked to better protect
SSNs in its records, the Agency has little control over an SSN’s collection, use, and disclosure
by external entities once it is assigned. For example, while the vast majority of wage reports
received from employers are accurate, SSA has had limited success correcting and posting wage
reports with erroneous employee names or SSNs.

Currently, there is no Federal law that imposes broad restrictions on the use of the SSN. In fact,
some Federal and State laws require the use of SSNs in certain governmental programs, such as
Medicare. To better protect SSNs and assist SSA in improving the accuracy of its earnings
records, we believe Congress and the Agency should continue seeking measures to limit the
collection, use, and disclosure of SSNs—in addition to other measures discussed below.

SSN Assignment and Protection: We commend the Agency for numerous improvements in its
enumeration process. Nevertheless, we continue to have concerns regarding SSN assignment
and protection. For example, the Agency has no authority to curb the unnecessary collection and
use of SSNs. Our audit and investigative work have taught us that the more SSNs are
unnecessarily used, the higher the probability they could be used to commit crimes throughout
society. We believe SSA should support legislation to limit public and private entities’
collection and use of SSNs, and to improve the protection of this information when obtained.

We are also concerned that some noncitizens who are authorized to work by the Department of
Homeland Security (DHS), but will only be in the United States for a few months, are permitted
to obtain SSNs that are valid for life. Further, we believe controls over the issuance of Social
Security Number Printouts are insufficient to prevent improper access to these sensitive
documents and disclosure of personally identifiable information (PII). As such, SSA should
continue its efforts to safeguard and protect PII. Finally, we are concerned with the growth in
the demand for Social Security Number Printouts, because the proof of identity required for
obtaining these is less than that required for SSN replacement cards. We believe SSA should


FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                       15
consider charging its customers standardized fees for Social Security Number Printouts to reduce
the incentive for obtaining duplicative copies of these documents.

Posting of Earnings: Maintaining the integrity of the SSN and Social Security programs also
involves properly posting earnings reported under SSNs. SSA needs accurate earnings records to
determine both the eligibility for Social Security benefits and the amount of those benefits. SSA
expends scarce resources correcting earnings data when employers report incorrect information.
The Earnings Suspense File (ESF) is the Agency’s record of annual wage reports for wage
earners whose names and SSNs cannot be matched to SSA’s records. As of October 2010, the
ESF had accumulated approximately 305 million wage items for Tax Years (TY) 1937 through
2008, representing about $921 billion in wages. In TY 2008 alone, SSA posted 9.4 million wage
items, representing $86 billion, to the ESF.

While SSA cannot control all the factors associated with erroneous wage reports, it can improve
wage reporting by informing employers about potential SSN misuse cases, identifying and
resolving employer reporting problems, encouraging greater use of the Agency’s employee
verification programs, and enhancing employee verification feedback to provide employers with
sufficient information on potential employee issues. SSA can also improve coordination with
other Federal agencies with separate, yet related, mandates. For example, the Agency needs to
work with the Internal Revenue Service to achieve more accurate wage reporting.

Agency Actions
Despite related challenges, we believe SSA’s improved procedures have reduced its risk of
improperly assigning these important numbers. Some of SSA’s more notable enumeration
improvements include (1) establishing Enumeration Centers in many States that focus
exclusively on assigning SSNs and issuing SSN cards; (2) requiring that field office personnel
processing SSN applications use a Web-based Intranet application known as SSNAP, which
combines the functionality of the SS-5 Assistant and the Modernized Enumeration System; and
(3) implementing a new SSN assignment methodology called SSN randomization.

SSA has also taken steps to reduce the size and growth of the ESF. The Agency has increased its
electronic wage reporting, expanded the use of its Social Security Number Verification Service
(SSNVS) program, and continued to support DHS in administering the E-Verify program.

Increased Electronic Wage Reporting: SSA has been working to eliminate paper wage reports
while migrating to an electronic earnings record process, because paper wage reports are more
error-prone, labor-intensive, and expensive to process. SSA encourages employers to use
Business Services Online to electronically file Wage and Tax Statements (Forms W-2) for their
employees. In FY 2011, SSA processed over 184 million Forms W-2 electronically.

Expanded Use of SSNVS: SSA has been working with the business community to encourage
additional employers to use SSNVS. SSNVS allows employers to determine, almost instantly,
whether an employee’s reported name and SSN match SSA’s records. Increased use of SSNVS
helps reduce fraud and improves the accuracy of individuals’ earnings records. In FY 2011,
approximately 43,000 registered employers used SSNVS to check over 106 million SSNs.


FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                   16
Collaborated with DHS: SSA continues to support E-Verify, a DHS program that allows
employers to verify electronically whether newly hired employees are authorized to work in the
United States under immigration law. With SSA’s assistance, DHS has made program
improvements. For example, DHS implemented E-Verify's Photo Screening Tool, which allows
employers to check the photograph on the new hire's Employment Authorization Document or
Permanent Resident Card against the 15 million images stored in DHS’ immigration databases.
Further, the Photo Screening Tool helps employers identify instances of identity theft in the
employment eligibility process.

In March 2011, DHS implemented the E-Verify Self Check service, which is a free, Internet-
based application that can be used by U.S. workers over age 16 to confirm their employment
eligibility. DHS is implementing the Self Check service in phases—it is now available in
21 States. For FY 2011, about 293,000 employers were enrolled to use E-Verify, and they
submitted over 18 million queries during this period. Additionally, nearly 23,000 transactions
were processed through the E-Verify Self Check Service.




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                    17
              Improve Transparency and Accountability

CHALLENGE: SSA continues to lack a full set of performance indicators that measure
whether it is meeting all its strategic goals. Additionally, SSA faces a number of challenges
ensuring accountability, including concerns over its systems security, administrative cost
allocations, and IT investment fund transfers.

There have been a number of efforts to make Federal agencies more transparent and accountable.
The Chief Financial Officers Act of 1990 (Pub. L. No. 101-576) provides for the production of
complete, reliable, timely, and consistent financial information for use by the executive branch
of the Government and Congress in the financing, management, and evaluation of Federal
programs. The Government Performance and Results Act of 1993 (GPRA) (Pub. L. No. 103-62)
and the GPRA Modernization Act of 2010 (Pub. L. No. 111-352) seek to improve Federal
program effectiveness and public accountability by focusing on results, service quality, and
customer satisfaction. More recently, the Open Government Directive requires that Federal
agencies improve the quality of Government information, publish Government information
online, create and institutionalize a culture of open Government, and create an enabling policy
framework for open Government.

Performance Indicators: While SSA has increased the transparency of its operations through
its Annual Performance Plans, Performance and Accountability Reports, and Open Government
Plan, we believe the Agency can strengthen public reporting of its performance. In our report,
Performance Indicator Audit: The Social Security Administration’s Fiscal Year 2010
Performance Indicators, our contractor concluded that SSA could develop more outcome-based
performance indicators (PI). Our contractor evaluated SSA’s alignment of its PIs with its
strategic goals and objectives and found that 3 strategic goals and objectives did not have an
associated PI, and 16 PIs were ineffective measures of the Agency’s progress in achieving its
strategic goals and objectives.

We believe SSA is more transparent when it measures and publicly reports on the performance
of its critical programs or activities. Neither SSA’s Strategic Plan nor the Annual Performance
Plan contained a performance measure to publicly track SSA’s progress in constructing a new
data center, even though the Strategic Plan states that all the Agency’s plans depend on a strong
21st-century data center to replace the aged NCC. Also, SSA does not have a performance
measure to track progress in updating its computer programs, even though its Strategic Plan
noted that its IT infrastructure was resting on a foundation of aging computer programs. The
aging computer systems make it difficult to implement new business processes and service
delivery models.

Performance Data: Our contractor completed more in-depth analyses of performance data that
support 10 PIs that measure SSA’s Environmental Management System, electronic service
delivery, disability process, and hearings and appeals process. It tested critical controls of the
systems that produced the data, and determined their adequacy, accuracy, reasonableness,
completeness, and consistency. It concluded that SSA could improve the underlying data
supporting the PIs for each of the key activities we examined. For example, our contractor was



FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                       18
unable to test the controls and reliability of the data for the PIs measuring electronic service
delivery, since SSA did not maintain the data that supported the reported performance in its
PAR. SSA stated that it did not maintain data to support some PIs because of computer storage
issues and staffing resources. Our contractor concluded SSA should reevaluate its computer
storage capacity since such technology has evolved over the past several years. Also, our
contractor found that SSA could improve the internal controls and accuracy of the underlying
data supporting the measurement of the hearings and appeals process.

Information Security: Sound internal controls help ensure the Agency is accountable to its
mission and relevant laws, regulations, and policies. Internal control comprises the plans,
methods, and procedures used to meet missions, goals, and objectives. Last year, we reported a
significant deficiency in SSA’s internal control over information security in our Report on
Management’s Assertion about the Effectiveness of Internal Control. We are reporting the same
deficiency this year. Specifically, SSA had not consistently complied with the policies and
procedures on periodic reassessments of the content of security access profiles. Additionally,
security permissions provided to some employees and contractors were in excess of access
required to complete their job responsibilities. Lastly, SSA’s mainframe operating system
contained configurations that increased the risk of unauthorized access to key financial data and
programs.

Administrative Cost Allocation: We also believe SSA can bring greater accountability to its
administrative cost allocation. The Social Security Act authorizes SSA to allocate administrative
costs to the four Trust Funds for which it provides administrative support: the Retirement and
Survivors Insurance Trust, the Disability Insurance Trust, the Hospital Insurance Trust, and the
Supplementary Medical Insurance Trust. SSA uses its Cost Analysis System (CAS) to allocate
administrative costs to these four Trust Funds and general fund programs administered by SSA,
such as the SSI program.

We hired a contractor to review CAS given its importance to SSA’s ability to provide reliable
and timely information on the full costs of the programs it administers. Our contractor found
that CAS has certain risks that SSA needs to address to ensure it provides viable calculations of
SSA’s administrative costs. For example, SSA has not updated the CAS cost allocation
methodology in over 30 years to account for changes in business processes, system technology,
or Federal accounting standards. The failure to periodically revisit and update the cost allocation
methodology could result in costing assumptions and cost factors that are no longer valid or
accurate. Consequently, the equitable and appropriate allocation of SSA’s administrative costs
to the Trust Funds could be at risk.

Similarly, the Office of Disability Adjudication and Review cost allocation process was outdated
and inaccurate. The Office developed the original standard time values in the early 1980s. The
specific details regarding the rationale and calculation of the standard time values were unclear,
as there is no documentation on their development, and individuals who created them have
retired. The ODAR cost allocation process standard time values were revised in FY 2011.
During the first quarter of Fiscal Year (FY) 2010, ODAR conducted an internal Cost Reporting
ODAR Workgroup (CROW) study of the standard time values used in its workload measurement
process. ODAR managers requested the study because they believed that some of the standard



FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                      19
time values they were using in their cost allocation process were outdated and inaccurate. Based
on the CROW study results, ODAR reduced standard time values for hearings by an average of
16.22 hours and reduced travel times for ALJs from 1.1 hours per workday to 3.55 hours
per month.

Time Allocation System: In 2001, SSA developed a workgroup to develop and implement a
unified system for measuring and distributing work hours among organizations and workloads
that would be accurate, reliable, and cost-effective. The workgroup proposed the Time
Allocation System (TAS) to replace the District Office Work Sample used in the Work
Measurement System, which submits to CAS. In 2009, SSA identified many instances of
differences between observed activities and TAS reporting. That same year, SSA terminated the
TAS project. We believe that if SSA had conducted sufficient project planning before initiating
the TAS project, most, if not all, of the events that led SSA to terminate the project could have
been resolved before expending approximately $36 million of Agency resources.

IT Investment Account: Accountability includes using budgeted funds efficiently and
effectively. Each FY, SSA does not spend approximately 1 percent of its administrative budget
to cover adjustments to existing obligations. SSA can transfer the unspent administrative funds
that are not used to cover adjustments to an account for IT investment. Based on a historical
review, we found that SSA did not need to leave any funds unspent at the end of the FY to cover
adjustments. Accordingly, we recommended that SSA review its existing policy and procedures
and make changes as needed to decrease the amount of administrative funds remaining at the end
of each FY.

As of May 2011, Congress rescinded $275 million from SSA’s unspent administrative budget in
the no-year account. While we found that SSA was transferring unspent funds for IT investment
in accordance with public laws, we believe SSA could improve the transparency of the process if
the Agency seeks the explicit approval of its congressional oversight committee before making
the transfer and obtains agreement on the amount to transfer.

Agency Actions
Transparency: SSA has continually revised its performance indicators and goals to provide the
public an indication of its performance. SSA has also taken steps to implement the Open
Government Directive, which is focused on increasing transparency within the Federal
government. It released its first Open Government Plan in June 2010 and has continued to
update its Open Government Website. SSA also released 34 different datasets on Data.gov as of
the end of September 2011. These datasets are accessible by the public.

Accountability: SSA has taken steps to address the security of its sensitive information. SSA
assembled a workgroup to address the access control weaknesses identified as a significant
deficiency. The workgroup is testing a commercial tool to manage its employee and contractor
access. SSA plans to roll out a pilot program in December 2011 to resolve some of its access
control weaknesses.




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                    20
                                                                      APPENDICES
APPENDIX A – Acronyms

APPENDIX B – Related Office of the Inspector General Reports

APPENDIX C – Office of the Inspector General Contacts




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)
                                                                                       Appendix A

Acronyms
 ALJ                Administrative Law Judge
 ARRA               American Recovery and Reinvestment Act of 2009
 CAS                Cost Analysis System
 CDI                Cooperative Disability Investigations
 CDR                Continuing Disability Review
 COBOL              Common Business Oriented Language
 CY                 Calendar Year
 DDS                Disability Determination Services
 DHS                Department of Homeland Security
 ERP                Economic Recovery Payment
 ESF                Earnings Suspense File
 Forms W-2          Wage and Tax Statements
 FY                 Fiscal Year
 GPRA               Government Performance and Results Act of 1993
 GSA                General Services Administration
 IPERA              Improper Payments Elimination and Recovery Act of 2010
 IT                 Information Technology
 MADAM              Master Data Access Method
 NCC                National Computer Center
 OASDI              Old-Age, Survivors and Disability Insurance
 OMB                Office of Management and Budget
 PI                 Performance Indicator
 PII                Personally Identifiable Information
 Pub. L. No.        Public Law Number
 SSA                Social Security Administration
 SSI                Supplemental Security Income
 SSN                Social Security Number
 SSNVS              Social Security Number Verification Service
 Strategy           Strategy to Address Increasing Initial Disability Claim Receipts
 TAS                Time Allocation System
 Treasury           Department of the Treasury
 TY                 Tax Year




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                   A-1
                                                                                Appendix B

Related Office of the Inspector General Reports
 Management Challenge Area, Report Title, and Common                               Report
               Identification Number                                               Issued
                   Implement the American Recovery and Reinvestment
                             Act Effectively and Efficiently
 The Program Requirements for the Social Security Administration’s
                                                                            May 31, 2011
 New Data Center (A-14-11-11144)

 The Social Security Administration’s New Data Center Site
                                                                            February 10, 2011
 Alternatives (Limited Distribution) (A-14-10-20184)

 Economic Recovery Payments – Catch Up Payments
                                                                            January 10, 2011
 (A-09-10-11099)




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                      B-1
 Management Challenge Area, Report Title, and Common                               Report
               Identification Number                                               Issued
                 Reduce the Hearings Backlog and Prevent its Recurrence

 Congressional Response Report: Electronic Services for Claimant
                                                                            August 22, 2011
 Representatives (A-05-11-01124)

 Representative Video Project (A-05-09-19101)                               August 4, 2011

 Senior Attorney Adjudicator Program (A-12-10-11018)                        July 29, 2011

 Congressional Response Report: The Office of Disability Adjudication
 and Review's Hearings Backlog and Processing Times                         June 29, 2011
 (A-12-11-21192)

 Use of Video Hearings to Reduce the Hearing Case Backlog
                                                                            April 22, 2011
 (A-05-08-18070)

 Congressional Response Report: Office of Disability Adjudication and
                                                                            February 25, 2011
 Review’s Scheduling Procedures for Hearings (A-12-10-20169)

 Performance Indicator Audit: Hearings and Appeals Backlog
                                                                            February 25, 2011
 (A-15-10-11075)

 Office of Disability Adjudication and Review Hearing Request
                                                                            December 14, 2010
 Dismissals (A-07-10-20171)

 Office of Disability Adjudication and Review Decision-Writing
                                                                            November 17, 2010
 Process (A-02-09-19068)




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                     B-2
 Management Challenge Area, Report Title, and Common                                Report
               Identification Number                                                Issued
               Improve the Timeliness and Quality of the Disability Process

 Follow-up: Childhood Continuing Disability Reviews and Age 18
                                                                            September 23, 2011
 Redeterminations (A-01-11-11118)

 Administrative Costs Claimed by the Ohio Division of Disability
                                                                            September 16, 2011
 Determination (A-05-09-19127)

 Work Incentive Planning and Assistance Project
                                                                            August 11, 2011
 (A-03-10-11054)

 South Dakota Disability Determination Services’ Administrative Cost
                                                                            August 4, 2011
 Reporting (A-06-11-11153)

 The Effects of the Electronic Claims Analysis Tool (A-01-11-21193)         July 7, 2011

 Congressional Response Report: Applicant Experiences with
 Disability Insurance Benefit Internet Claim Applications                   June 28, 2011
 (A-07-10-20176)

 Administrative Costs Claimed by the Nevada Disability Determination
                                                                     June 27, 2011
 Services (A-09-10-11090)

 The Social Security Administration’s Strategy for Reducing the Initial
                                                                            June 8, 2011
 Claims Backlog (A-07-10-10162)

 Overall Disability Claim Times for 2009 (A-01-10-10168)                    May 31, 2011

 Failure to Cooperate Denials and Initial Claims Backlog at the
                                                                            May 25, 2011
 California Disability Determination Services (A-09-10-21093)

 Administrative Costs Claimed by the South Carolina Disability
                                                                            May 4, 2011
 Determination Services (A-04-10-10178)

 Congressional Response Report: Internet Claim Applications for
                                                                            May 4, 2011
 Disability Insurance Benefits (A-07-10-20166)

 The Social Security Administration’s Response to State Furloughs
                                                                            March 22, 2011
 Impacting its Disability Programs (A-01-11-11116)

 Consultative Examinations at the Indiana Disability Determination
                                                                            March 1, 2011
 Bureau (A-05-10-21061)



FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                     B-3
 Management Challenge Area, Report Title, and Common                               Report
               Identification Number                                               Issued
 Performance Indicator Audit: Disability Process
                                                                            January 24, 2011
 (A-15-10-11074)

 Social Security Administration’s Electronic Claims Analysis Tool
                                                                            January 5, 2011
 (A-01-10-11010)

 Accuracy of Diagnosis Codes in the Social Security Administration’s
                                                                            December 8, 2010
 Databases (A-06-09-19128)

 Job Information Used in the Social Security Administration’s
                                                                            November 30, 2011
 Disability Claims Adjudication Process (A-01-10-21024)

 Indirect Costs Claimed by the California Disability Determination
                                                                            November 16, 2011
 Services (A-09-10-11079)




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                      B-4
  Management Challenge Area, Report Title, and Common                               Report
               Identification Number                                                Issued

           Reduce Improper Payments and Increase Overpayment Recoveries

 The Social Security Administration’s Plan to Reduce Improper
 Payments Under Executive Order 13520, As Reported in                       September 28, 2011
 March 2011(A-15-11-01126)

 Follow-up: Survivor Benefits Paid in Instances When the Social
 Security Administration Removed the Death Entry from a Primary             September 1, 2011
 Wage Earner’s Record (A-06-10-20135)

 Collection of Civil Monetary Penalties (A-06-11-11136)                     August 12, 2011

 Follow-up: Supplemental Security Income Overpayments to
                                                                            July 11, 2011
 Recipients in Title XIX Institutions (A-08-10-10138)

 Disability Insurance and Supplemental Security Income Claims
                                                                            June 20, 2011
 Allowed But Not Paid (A-01-10-10177)

 Supplemental Security Income Recipients with Unreported Real
                                                                            June 1, 2011
 Property (A-02-09-29025)

 Title II Beneficiaries Whose Benefits Have Been Suspended and Who
                                                                            April 28, 2011
 Have a Date of Death on the Numident (A-09-10-10117)

 Debt Collection Activities in the Supplemental Security Income
                                                                            April 22, 2011
 Program (A-07-10-20139)

 Supplemental Security Income Recipients with Wages in the Earnings
                                                                            April 18, 2011
 Suspense File (A-03-10-11038)

 Implementation of Phase I of the Martinez Settlement Agreement
                                                                            February 25, 2011
 (A-01-10-10160)

 Underpaid Disabled Widows (A-01-10-20115)                                  February 23, 2011

 Accuracy of Fiscal Year 2009 Title II Disability Insurance Benefit
                                                                            February 23, 2011
 Payments Involving Workers' Compensation Offsets (A-04-10-11014)

 Impact of Alien Nonpayment Provisions on Field Offices Along the
                                                                            February 15, 2011
 Mexican Border (A-08-10-20140)



FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                       B-5
  Management Challenge Area, Report Title, and Common                               Report
               Identification Number                                                Issued
 Supplemental Security Income Double Check Negotiations
                                                                            January 28, 2011
 (A-06-10-20144)

 Recovery of Title II Payments Issued After Beneficiaries’ Deaths
                                                                            January 4, 2011
 (A-09-10-11037)

 The Social Security Administration's Reporting of High-Dollar
                                                                            December 30, 2010
 Overpayments Under Executive Order 13520 (A-15-10-21142)

 Claimant Representative Fees Paid Through the Social Security
                                                                            November 24, 2010
 Administration’s One-Time Payment System (A-04-10-11026)

 Federal Employees Receiving Both Federal Employees'
 Compensation Act and Disability Insurance Payments                         October 14, 2010
 (A-15-09-19008)




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                      B-6
 Management Challenge Area, Report Title, and Common                                Report
               Identification Number                                                Issued
                                   Improve Customer Service

 Employee Retirement Income Security Act Related Notices
                                                                            September 26, 2011
 (A-13-11-01141)

 Congressional Response Report: The Social Security Administration’s
                                                                            July 29, 2011
 Customer Service Delivery Plan (A-07-11-01125)

 Safe Harbor, A Fee-for-Service Representative Payee for the Social
                                                                            July 5, 2011
 Security Administration (A-07-11-11141)

 Aged Beneficiaries Whose Benefits Have Been Suspended for Address
                                                                            June 17, 2011
 or Whereabouts Unknown (A-09-09-29117)

 Minor Children Receiving Benefits Without a Representative Payee
                                                                            May 4, 2011
 (A-13-10-10104)

 Congressional Response Report: Internet Claim Applications for
                                                                            April 22, 2011
 Retirement Insurance Benefits (A-07-10-20165)

 Emerge, Incorporated, an Organizational Representative Payee for
                                                                            March 31, 2011
 the Social Security Administration (A-13-10-21087)

 Improperly Titled Bank Accounts for Beneficiaries with
                                                                            March 31, 2011
 Representative Payees (A-01-09-19055)

 Annual Representative Payee Accounting Report Non-responders
                                                                            March 28, 2011
 (A-06-10-11069)

 Congressional Response Report: Applicant Experiences with
 Retirement Insurance Benefit Internet Claim Applications                   March 7, 2011
 (A-07-10-20167)

 Gateway Representative Payee Program, an Organizational
 Representative Payee for the Social Security Administration                March 3, 2011
 (A-08-10-11048)

 An Individual Representative Payee for the Social Security
                                                                            February 23, 2011
 Administration in Michigan (A-15-10-11077)




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                    B-7
 Management Challenge Area, Report Title, and Common                               Report
               Identification Number                                               Issued
 The Developmental Disabilities Association of New Jersey,
 Incorporated - An Organizational Representative Payee for the Social       February 23, 2011
 Security Administration (A-02-10-41084)

 The Social Security Administration’s Month of Election Policy for
                                                                            February 15, 2011
 Retirement Benefits (A-08-10-20183)

 Threats Against Social Security Administration Employees or
                                                                            November 30, 2010
 Property (A-06-10-20123)

 The Social Security Administration’s Informing Beneficiaries of
                                                                            November 30, 2010
 Domestic Electronic Banking Options (A-15-09-19075)

 Dedicated Account Underpayments Payable to Children
                                                                            November 10, 2010
 (A-09-09-29110)

 Customer Waiting Times in the Social Security Administration's Field
                                                                            October 27, 2010
 Offices (A-04-10-11034)




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                      B-8
 Management Challenge Area, Report Title, and Common                               Report
               Identification Number                                               Issued
               Invest in Information Technology Infrastructure to Support
                              Current and Future Workloads
 The Social Security Administration’s Simplified Disability Internet
                                                                            September 6, 2011
 Application (A-14-11-21137)

 The Social Security Administration’s Managing and Monitoring of
                                                                            July 13, 2011
 Local Profiles (A-14-10-20106)

 Social Security Administration’s Electronic Claims Analysis Tool
                                                                            January 5, 2011
 (A-01-10-11010)

 Social Security Administration’s Voice over Internet Protocol
                                                                            December 28, 2010
 Contract (A-14-09-19045)

 Performance Indicator Audit: Electronic Service Delivery
                                                                            December 27, 2010
 (A-15-10-11073)

 The Social Security Administration's Controls for Ensuring the
 Removal of Sensitive Data from Excessed Computer Equipment                 November 10, 2010
 (A-14-10-11003)

 Fiscal Year 2010 Evaluation of the Social Security Administration's
 Compliance with the Federal Information Security Management Act            November 10, 2010
 (A-14-10-20109)

 Identifying Requirements for the Disability Case Processing System
                                                                            November 9, 2010
 Based on Finding from Prior Audits (A-44-10-20101)

 Congressional Response Report: The Social Security Administration's
 Disaster Recovery Capabilities (Limited Distribution)               November 1, 2010
 (A-14-11-21138)

 The Social Security Administration's Approval and Monitoring of the
                                                                            October 27, 2010
 Use of Software (A-14-10-21082)




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                      B-9
 Management Challenge Area, Report Title, and Common                               Report
               Identification Number                                               Issued
         Strengthen the Integrity and Protection of the Social Security Number

 H-1B Workers’ Use of Social Security Numbers (A-08-11-11114)               September 7, 2011

 Follow-up: Social Security Number Cards Issued After Death
                                                                            May 20, 2011
 (A-06-10-20136)

 The Handling and Destruction of Social Security Number Cards
                                                                            April 26, 2011
 Deemed as Spoilage (Limited Distribution) (A-15-10-20137)

 The Social Security Number Application Process (A-08-11-11121)             April 15, 2011

 Follow-up: Personally Identifiable Information Made Available to the
 Public Via the Death Master File (Limited Distribution)                    March 31, 2011
 (A-06-10-20173)

 Field Office Workload Related to Nonconfirmation Responses from
                                                                            November 9, 2010
 the Employment Verification Program (A-03-09-19052)

 Monitoring Controls for the Help America Vote Verification Program
                                                                            November 5, 2010
 (A-03-09-29114)




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                    B-10
  Management Challenge Area, Report Title, and Common                              Report
                Identification Number                                              Issued
                         Improve Transparency and Accountability

 Contract with Dell Marketing, L.P., for Microsoft Licensing and
                                                                            September 15, 2011
 Maintenance (A-06-10-10175)

 The Social Security Administration’s Use of the Limitation on
                                                                            September 14, 2011
 Administrative Expenses Appropriation (A-15-11-21170)

 Congressional Response Report: Social Security Administration Field
                                                                            September 9, 2011
 Office User Fees (A-04-11-01118)

 Management Advisory Report: Single Audit of the Commonwealth of
 Puerto Rico Department of the Family for the Fiscal Year Ended             July 6, 2011
 June 30, 2009 (A-77-11-00013)

 Management Advisory Report: Single Audit of the Commonwealth of
 Puerto Rico Department of the Family for the Fiscal Year Ended             June 14, 2011
 June 30, 2008 (A-77-11-00012)

 Management Advisory Report: Single Audit of the State of New York
                                                                            May 10, 2011
 for the Fiscal Year Ended March 31, 2009 (A-77-11-00011)

 Office of Disability Adjudication and Review Cost Allocation Process
                                                                            May 5, 2011
 (A-15-10-20150)

 Management Advisory Report: Single Audit of the Commonwealth of
 Pennsylvania for the Fiscal Year Ended June 30, 2009                       April 26, 2011
 (A-77-11-00010)

 Cost Analysis System Background Report and Viability Assessment
                                                                            April 20, 2011
 (A-15-10-20149)

 Performance Indicator Audit: The Social Security Administration’s
                                                                            April 18, 2011
 Fiscal Year 2010 Performance Indicators (A-02-10-11076)

 The Social Security Administration’s Time Allocation System
                                                                            April 18, 2011
 (A-14-10-20122)

 The Social Security Administration’s Guard Service Contract for
 Headquarters, the National Computer Center, and Security West              February 28, 2011
 (A-15-10-11089)




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                    B-11
  Management Challenge Area, Report Title, and Common                             Report
                Identification Number                                             Issued
 Management Advisory Report: Interim Audit of the State of California
                                                                            February 23, 2011
 for Fiscal Year 2010 (A-77-11-00009)

 Management Advisory Report: Single Audit of the State of Ohio for
                                                                            December 20, 2010
 the Fiscal Year Ended June 30, 2009 (A-77-11-00008)

 Management Advisory Report: Single Audit of the State of Arizona for
                                                                            December 20, 2010
 the Fiscal Year Ended June 30, 2009 (A-77-11-00007)

 Management Advisory Report: Single Audit of the State of Illinois for
                                                                            December 14, 2010
 the Fiscal Year Ended June 30, 2009 (A-77-11-00006 )

 Social Security Administration Employees’ Use of Discounted Airfares
                                                                            December 8, 2010
 (A-02-09-29089)

 Management Advisory Report: Single Audit of the State of Colorado
                                                                            December 1, 2010
 for the Fiscal Year Ended June 30, 2009 (A-77-11-00005)

 Management Advisory Report: Single Audit of the Commonwealth of
 Massachusetts for the Fiscal Year Ended June 30, 2009                      November 24, 2010
 (A-77-11-00004)

 Management Advisory Report: Single Audit of the Government of the
 District of Columbia for the Fiscal Year Ended September 30,               November 24, 2010
 2009 (A-77-11-00003)

 Congressional Response Report: The Social Security Administration's
                                                                            November 10, 2010
 Facilities Management (A-13-11-21110)

 Management Advisory Report: Single Audit of the State of California
                                                                            November 9, 2010
 for the Fiscal Year Ended June 30, 2009 (A-77-11-00002)

 Fiscal Year 2010 Financial Statement Audit Oversight
                                                                            November 8, 2010
 (A-15-10-10113)

 Fiscal Year 2010 Inspector General Statement on the Social Security
 Administration's Major Management and Performance Challenges               November 8, 2010
 (A-02-11-11131)




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                  B-12
  Management Challenge Area, Report Title, and Common                             Report
                Identification Number                                             Issued
 Management Advisory Report: Single Audit of the State of Montana
                                                                            October 21, 2010
 for the 2-Year Period Ended June 30, 2009 (A-77-11-00001)

 Congressional Response Report: The Social Security Administration's
                                                                            October 15, 2010
 Financial Literacy Research Consortium (A-08-10-20181)




FY 2011 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)                  B-13
                                                                                   Appendix C

Office of the Inspector General Contacts

Brian Karpe, Director                               Implement the American Recovery and
                                                    Reinvestment Act Effectively and Efficiently
                                                    Invest in Information Technology
                                                    Infrastructure to Support Current and Future
                                                    Workloads
Walter Bayer, Director                              Reduce the Hearings Backlog and Prevent its
                                                    Recurrence

Mark Bailey, Director                               Improve the Timeliness and Quality of the
                                                    Disability Process

Ron Gunia, Director                                 Reduce Improper Payments and Increase
Judith Oliveira, Director                           Overpayment Recoveries

Jim Klein, Director                                 Improve Customer Service
Shirley Todd, Director

Kim Byrd, Director                                  Strengthen the Integrity and Protection of the
Cylinda McCloud-Keal, Director                      Social Security Number

Tim Nee, Director                                   Improve Transparency and Accountability
Victoria Vetter, Director

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or contact the
Office of the Inspector General’s Public Affairs at (410) 965-4518. Refer to Common
Identification Number A-02-12-11231.




FY 2010 IG Statement on SSA’s Major Management Challenges (A-02-12-11231)
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security

Chairman and Ranking Member, Committee on Ways and Means

Chief of Staff, Committee on Ways and Means

Chairman and Ranking Minority Member, Subcommittee on Social Security

Majority and Minority Staff Director, Subcommittee on Social Security

Chairman and Ranking Minority Member, Committee on the Budget, House of Representatives

Chairman and Ranking Minority Member, Committee on Oversight and Government Reform

Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives

Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives

Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate

Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, U.S. Senate

Chairman and Ranking Minority Member, Committee on Finance

Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy

Chairman and Ranking Minority Member, Senate Special Committee on Aging

Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.

                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
